Nos. 19-251 & 19-255

In the Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION, Petitioner,
v.
XAVIER BECERRA, Respondent.
THOMAS MORE LAW CENTER, Petitioner,
v.
XAVIER BECERRA, Respondent.
ON WRITS OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNOPPOSED APPLICATION TO EXCEED WORD LIMITS

1
Pursuant to Supreme Court Rules 22 and 33.1(d), respondent respectfully
requests leave to file a brief on the merits in excess of the word limits, up to a
total word limit of 15,000 words.
1. This case arises from two different challenges to California’s
requirement that tax-exempt charities submit, on a confidential basis, the
same schedule of major donors that they provide to the IRS. See No. 19-251
Pet. App. 6a-7a.

Petitioner Americans for Prosperity Foundation and

petitioner the Thomas More Law Center filed separate suits against the State’s
requirement. Id. at 11a. The district court held separate bench trials, and in
separate judgments ruled that the requirement was unconstitutional as
applied to each petitioner.

Id. at 13a.

In an opinion addressing both

judgments, the court of appeals reversed. Id. at 40a.
On August 26, 2019, petitioners each filed a petition for a writ of
certiorari.

On January 8, 2021, this Court granted both petitions and

consolidated the cases for briefing and argument. On February 22, 2021, each
petitioner filed a separate brief on the merits.
2. Respondent respectfully requests a 2,000-word extension of the word
limits, up to a total limit of 15,000 words, for its brief on the merits.
Respondent intends to file a single brief responding to both petitioners’ briefs.
To the extent respondent concludes additional words are needed as the brief
on the merits is completed, the requested extension of the word limit would
ensure that respondent is able to fully address both petitioners’ arguments as

2
well as the factual records developed in the two separate trials held by the
district court.
Petitioners’ counsel have informed us that they consent to this request.
Respectfully submitted,

___/s/ Aimee Feinberg_____________
Aimee Feinberg
Deputy Solicitor General
California Department of Justice
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov
Counsel of Record for Respondent

March 9, 2021

